No. 20-40

 

 

IN THE

Supreme Court of the United States

CATIC USA INCORPORATED, also known as
AVIC INTERNATIONAL USA, INCORPORATED,

Petitioner,
Vv.
SOARING WIND ENERGY, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,936 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 6, 2020.

 

Wilson-Epes Printing Co., Inc.
